NRC: OIG-00E-09: Commission Response - Special Evaluation of the Role and Structure of the NRC's Commission
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 2000
> OIG-99E-9 Commission Response - Special Evaluation of the Role and
Structure of the NRC's Commission
OIG-00E-09: Commission Response - Special Evaluation of the Role and Structure of the NRC's Commission
January 13, 2000
MEMORANDUM TO:
Hubert Bell
Inspector General
FROM:
Richard A. Meserve
SUBJECT:
SPECIAL EVALUATION OF THE ROLE AND STRUCTURE OF THE NRC'S COMMISSION
The Commission has reviewed the above-captioned
report
and has requested that I forward some comments on it.
We understand the considerable effort that the Office of Inspector General has invested in preparing the report.  The Commission has given serious consideration to the suggestions, as well as the supporting analysis and observations.  Moreover, although some formal and structured opportunity for the Commission to review and comment on a draft report, as is common for OIG and GAO audit reports, might have been a helpful step in improving the report, each of the Commissioners has asked me to relay their appreciation for the individual briefings that you have provided over the past month.
The report contains several suggestions that warrant careful examination.  We perceive, however,  that the report may not adequately reflect the reality that the Commission is a dynamic institution which must adapt to changing circumstances.   Thus, in the absence of some analysis of those circumstances, simple numerical comparisons with the agency as it existed in the early 1980s, or with agencies all of whose budgets are smaller than the NRC's and whose Commissioners' staffs consist almost entirely of attorneys, are not instructive.  Moreover, the assessments of the Commission as it existed at the time of the staff survey may no longer be accurate and may be of very limited applicability to so fundamental a subject as "the Evaluation of the Role and Structure of the NRC's Commission".   As the report acknowledges, Congress created the agency as a Commission in order to assure that the independent viewpoints of five individuals are brought to bear in addressing the policy issues that confront us.  The independence of each of the Commissioners is thus a central value that Congress has sought to ensure.  Given this basic objective, we believe that the Commission should not intrude on how each individual Commissioner decides to structure his or her personal staff or define "performance measures" to judge the performance of a Commissioner or the Commission itself.  After all, the agency's goals and performance measures are not different from the Commission's.
Although the report raises questions about how the Commission interacts, it fails to recognize that in 1998 the Commission undertook a review of its internal procedures.  The resultant Internal Commission Procedures of June 30, 1998, sought to define the Commission's duties and responsibilities in accordance with the Energy Reorganization Act of 1974 and the Reorganization Plan No. 1 of 1980.  The report also suggests that the Commission should develop guidance as to when individual members can state their differing views on issues after the agency has announced an official position.   We believe, however, that in performing the duty to pursue sound public policy, each Commissioner must have the right to speak as his or her conscience directs.  Indeed, we believe that we are more likely to reach better decisions and to instill greater public confidence in those decisions if the commission follows a policy of openness, thereby demonstrating that each issue is and has been forthrightly confronted and explored.  Of course, care must be taken to assure that independent views are not perceived to be agency positions.  To our knowledge, Commissioners have made clear in most cases when they were stating positions that were their own rather than agency positions.  Nonetheless, the preservation of the right for a Commissioner to speak out is the best way to assure the public that the NRC is prepared to address issues freely and openly.
In sum, although there are some aspects of the report with which we disagree,
we appreciate your efforts and take your suggestions very seriously.
cc:
Commissioner Dicus
Commissioner Diaz
Commissioner McGaffigan
Commissioner Merrifield
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees